APPENDIX A
834 Fed.Appx. 742
This case was not selected for publication in West‘s Federal Reporter.
United States Court of Appeals, Third Circuit.
UNITED STATES of America
v.
Devon E. SANDERS, Appellant
Nos. 18-2719 and 18-2994
|Argued: September 24, 2019
|(Opinion filed: November 13, 2020)
*743 On Appeal from the United States District Court for the Eastern District of
Pennsylvania (D.C. Criminal No. 2:16-cr-00513-001), District Court Judge:
Honorable Lawrence F. Stengel
Before: McKEE, AMBRO, and ROTH, Circuit Judges
OPINION*
*

This disposition is not an opinion of the full Court and under I.O.P. 5.7
does not constitute binding precedent.

McKEE, Circuit Judge.
Appellant Devon Sanders pled guilty to receipt of child pornography in violation of
18 U.S.C. § 2242(a)(2) and possession of child pornography in violation of 18 U.S.C.
§ 2252(a)(4)(B). Sanders presents three issues on appeal: (1) that his receipt and
possession charges should have merged for sentencing; (2) that the district court
erred when it found that probation was not available under 18 U.S.C. § 2252(a)(2),
the receiving child pornography statute; and (3) that the district court abused its
discretion by failing to disaggregate Sanders‘ harm from the harm caused by the
original acts of child abuse when it ordered him to pay $91,049 in restitution.1 For
the following reasons, we will affirm the district court.2
1

On Sanders‘ first claim, we review whether the two counts of his indictment
merged for purposes of sentencing de novo as it presents a pure question of
statutory construction and constitutional law. United States v. Kennedy, 682

-1a-

F.3d 244, 255 n.8 (3d Cir. 2012). On Sanders‘ second claim, that probation is
an available sentence under 18 U.S.C. § 2252(b)(1), we review this statutory
interpretation issue de novo. See, e.g., Stiver v. Meko, 130 F.3d 574 (3d Cir.
1997). On Sanders‘ final claim, we review the district court‘s restitution order
for abuse of discretion. United States v. Quillen, 335 F.3d 219, 221 (3d Cir.
2003).

2

The district court had jurisdiction under 18 U.S.C. § 3231 and we have
jurisdiction over this appeal under 28 U.S.C. § 1291 and 18 U.S.C. § 3742 to
review the sentence and restitution order. See, e.g., United States v. Cooper,
437 F.3d 324, 327 (3d Cir. 2006); United States v. Stock, 728 F.3d 287, 291 (3d
Cir. 2013).

*744 The appellant correctly contends that the doctrine of merger is rooted in
protections against the same conduct receiving multiple punishments, which the
Double Jeopardy Clause prohibits.3 In United States v. Finley, we reiterated the
rule that for ―multiple punishments to constitute a double jeopardy violation, the
multiple charged offenses must be the same in law and in fact.‖4 Whether the
offenses are the same in law requires a court to consider if the statutory provision
creates multiple offenses or one offense provable in alternative ways.5 We expressly
held in United States v. Miller that possession of child pornography is a lesserincluded offense of receiving the pornographic material.6 Conversely, whether two
charged offenses are the same in fact requires the court to consider if the underlying
conduct violates the statute more than once or only a single time.7 Here, Sanders‘
receipt count was based on three images, and the possession count covered
thousands of images found later for which the government could not charge receipt.
Therefore, the district court correctly declined to merge the charges for sentencing.
3

4

Sanders Br. at 2 (framing the issue as whether ―the district court [should] have
granted defendant Sanders‘s motion to merge Counts One and Two, because
they charged the ―same offense‖ under the Double Jeopardy Clause‖).
726 F.3d 483, 495 (3d Cir. 2013) (emphasis in original).

-2a-

5

Id. (citing United States v. Rigas, 605 F.3d 194, 207 (3d Cir. 2010) (en banc)).

6

527 F.3d 54, 71 (3d Cir. 2008) (citing Ball v. United States, 470 U.S. 856, 105
S.Ct. 1668, 84 L.Ed.2d 740 (1985)).

7

Finley, 726 F.3d at 495 (citing Rigas, 605 F.3d at 212).

We need not reach the second issue of whether the district court erred when it
found that probation was not an available sentence under 18 U.S.C. § 2252(a)(2) as
the court clearly stated that it did not think that a probationary sentence was
appropriate here. App 201.
Finally, Sanders claims that the district court did not appropriately disaggregate
the harm that he caused to the victims from the harm caused by others in the
distribution chain, such as the producers and distributors of the images. In Paroline
v. United States, the Supreme Court laid out the considerations necessary to
determine restitution awards in child pornography cases.8 The court stated: ―At a
general level of abstraction, a court must assess as best it can from available
evidence the significance of the individual defendant‘s conduct in light of the
broader causal process that produced the victim‘s losses.‖9 It noted that ―[t]his
cannot be a precise mathematical inquiry and involves the use of discretion and
sound judgment.‖10 It then listed ―a variety of factors district courts might consider
in determining a proper amount of restitution,‖ noting that ―it is neither necessary
nor appropriate to prescribe a precise algorithm for determining the proper
restitution amount at this point in the law‘s development.‖11 It warned that ―[t]hese
factors need not be converted into a rigid formula.... They should *745 rather serve
as rough guideposts for determining an amount that fits the offense.‖12

-3a-

8

572 U.S. 434, 134 S.Ct. 1710, 188 L.Ed.2d 714 (2014).

9

Id. at 459, 134 S.Ct. 1710 (considering how courts should appropriately
determine restitution awards under the statute).

10

Id.

11

Id. at 459–60, 134 S.Ct. 1710.

12

Id. at 460, 134 S.Ct. 1710.

The district court explicitly considered all of the Paroline factors, including the
factor of ―whether the defendant had any connection to the initial production of the
images.‖ The Court of Appeals for the Eighth Circuit has noted that this factor
accounts for disaggregation of the harm caused by the initial abuse from the harm
of later possession.13 To the extent Paroline can be read to require a district court
make specific findings on disaggregation of the original harm from the harm caused
by possession, the district court explicitly reduced the award based on that factor.
App. 31. Thus, the district court did not abuse its discretion in setting the award
here.
13

United States v. Bordman, 895 F.3d 1048, 1058 (8th Cir. 2018), cert. denied, ––
– U.S. ––––, 139 S. Ct. 1618, 203 L.Ed.2d 902 (2019) (noting that Paroline
accounted for disaggregation in the factor that asked ―whether the defendant
had any connection to the initial production of the images‖).

Accordingly, for the reasons stated above, we will affirm the judgment of sentence.

-4a-

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 1 of 21
APPENDIX B

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA

UNITED STATES OF AMERICA
vs.
DEVON EDWARD SANDERS

:
:
:
:
:

CRIMINAL ACTION

NO. 16-cr-0513

MEMORANDUM
STENGEL, J.

I.

August 27, 2018

INTRODUCTION
On December 13, 2017, Defendant Devon Edward Sanders pleaded guilty

to receipt of child pornography, 18 U.S.C. § 2252(a)(2), and possession of child
pornography, § 2252(a)(4)(B). He was sentenced on June 4, 2018 to 84 months in
prison and 10 years of supervised release. The government now seeks restitution,
totaling $296,915, on behalf of twenty-two victims. For the reasons discussed
below, I will award one-third of that amount, totaling $98,972.
II.

PROCEDURAL AND FACTUAL BACKGROUND
Federal authorities became aware of Mr. Sanders‘s online activity when

Homeland Security Investigations (HSI) began investigating individuals using
―Bulletin Board A,‖ an Internet location ―dedicated to the advertisement,
distribution and production of child pornography.‖ (Doc. No. 54 at 1–2.) As
described in the government‘s restitution motion, Mr. Sanders had been
downloading sexually explicit images of children and babies. (Id. at 2.) On May
1
5a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 2 of 21

31, 2016, authorities executed a search warrant on Mr. Sanders‘s Glenside,
Pennsylvania home and subsequently examined the content of his computer and
four external hard drives. (Id.) The government summarizes the content as
follows:
Most of Sanders‘ collection depicted prepubescent girls, however
there were also images involving infants, toddlers, and underage
boys. The children in the images were sexually abused through
forced vaginal, oral, and anal sex by adult males, by other children,
and in some instances, by animals. Some images also depicted the
children alone, in sexually explicit positions. The videos and images
also include sadistic conduct and bondage. Of the videos, there are a
total of 554 unique child pornography videos that are greater than 5
minutes in length, and 11 of those are longer than 1 hour. The
longest running video is 3 days and 12 hours. All total, his very large
collection filled four external hard drives, which accounts for
approximately 2.5 Terabytes of data.
(Id. at 3–4.)
Mr. Sanders possessed over 94,000 unique images of child pornography.1
(Id. at 1.) Twenty-two individual victims seek restitution totaling $296,915. (Id.)
Exhibit A of the government‘s motion requesting restitution breaks down the
restitution request by amount per victim. Exhibits B–M, organized by series,
provide evidence of each victim‘s harm. Exhibit Q is a chart that lists the
restitution awards that defendants in previous cases have been ordered to pay the
victims.

1

The defendant does not ―stipulate that the government‘s count is correct as to the
number of unique images‖ he possessed. (Doc. No. 59, at 2.) However, the accuracy of
this number is not dispositive to my decision regarding restitution.

2
6a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 3 of 21

III.

LEGAL STANDARD
Defendants convicted of receiving and possessing child pornography must

pay restitution to their victims. See 18 U.S.C. § 2259(a), (b)(4). Under § 2259,
restitution covers ―the full amount of the victim‘s losses.‖ § 2259(b)(1), (3). A
court may not decline to order restitution because of the defendant‘s economic
circumstances or ―the fact that the victim has, or is entitled to, receive
compensation‖ from another source. § 2259(b)(4)(B).
Child pornography victims are harmed not only by the original abuse, but
also by the online permanent record, which is proliferated by those who distribute,
receive, and possess the images. New York v. Ferber, 458 U.S. 747, 747 n.10
(1982). Because the victims‘ harm is caused by both an original abuser and an
indeterminate number of possessors and distributors, it is a significant challenge to
apportion restitution.
In 2014, the U.S. Supreme Court recognized this challenge, and Justice
Kennedy authored a majority opinion that outlined a ―broad-stroke standard‖ for
calculating restitution. United States v. Darbasie, 164 F. Supp. 3d 400, 404
(E.D.N.Y. 2016) (citing Paroline v. United States, 134 S. Ct. 1710 (2014)). The
Paroline framework, which I will discuss below in detail, instructs district courts
regarding their great power and great responsibility to set the dollar value that an
individual defendant owes individual victims.
Paroline held that mandatory restitution under § 2259 is proper ―to the
extent the defendant‘s offense proximately caused a victim‘s losses.‖ 134 S. Ct. at
3
7a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 4 of 21

1722.The Court explained its rationale, and the causal link that must be
established, as follows:
In this special context, where it can be shown both that a defendant
possessed a victim‘s images and that a victim has outstanding losses
caused by the continuing traffic in those images but where it is
impossible to trace a particular amount of those losses to the
individual defendant by recourse to a more traditional causal inquiry,
a court applying § 2259 should order restitution in an amount that
comports with the defendant’s relative role in the causal process
that underlies the victim‘s general losses. The amount would not be
severe in a case like this, given the nature of the causal connection
between the conduct of a possessor like Paroline and the entirety of
the victim‘s general losses from the trade in her images, which are
the product of the acts of thousands of offenders. It would not,
however, be a token or nominal amount. The required restitution
would be a reasonable and circumscribed award imposed in
recognition of the indisputable role of the offender in the causal
process underlying the victim‘s losses and suited to the relative size
of that causal role.
Id. at 1727 (emphasis added).
Paroline outlined discretionary considerations and factors that a district
court should assess to determine a defendant‘s ―relative role in the causal
process.‖
[D]istrict courts might, as a starting point, determine the amount of the
victim‘s losses caused by the continuing traffic in the victim‘s images . . . ,
then set an award of restitution in consideration of factors that bear on the
relative causal significance of the defendant’s conduct in producing those
losses. These could include [1] the number of past criminal defendants
found to have contributed to the victim‘s general losses;2 [2] reasonable
predictions of the number of future offenders likely to be caught and
convicted for crimes contributing to the victim‘s general losses; [3] any
available and reasonably reliable estimate of the broader number of
2

Paroline states that ―general losses‖ are losses that stem from the ―ongoing traffic‖ in
the victim‘s images. Id. at 1722. As I will discuss below, such losses should be
disaggregated from the ―losses sustained as a result of the initial physical abuse.‖ Id.

4
8a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 5 of 21

offenders involved (most of whom will, of course, never be caught or
convicted); [4] whether the defendant reproduced or distributed images of
the victim; [5] whether the defendant had any connection to the initial
production of the images; [6] how many images of the victim the defendant
possessed; and [7] other facts relevant to the defendant‘s relative causal
role.
These factors need not be converted into a rigid formula, especially if doing
so would result in trivial restitution orders. They should rather serve as
rough guideposts for determining an amount that fits the offense. The
resulting amount fixed by the court would be deemed the amount of the
victim‘s general losses that were the ―proximate result of the offense‖ for
purposes of § 2259, and thus the ―full amount‖ of such losses that should be
awarded. The court could then set an appropriate payment schedule in
consideration of the defendant‘s financial means. See § 3664(f)(2).
Id. at 1728 (citation omitted) (emphasis and numbering added).
IV.

DISCUSSION
Mr. Sanders claims that the government has not met its burden of proving

by a preponderance of evidence that his relative role in causing the victims‘ losses
comports with its requested restitution awards. Mr. Sanders does not dispute that
the individuals requesting restitution in his case are ―victims‖ under § 2259 or that
he possessed their images, and he does not dispute that they suffered the losses
described and quantified in Exhibits B–M.
The defendant bases his objection to the government‘s restitution request
on two distinct issues:3 (1) the government failed to differentiate between the harm

3

The defendant makes an additional argument in its supplemental response to the
government‘s motion for restitution. (Doc. No. 59.) He argues that he did not proximately
cause any damages that predate his criminal conduct. (Id. at 1.)
Based on a 2015 Third Circuit decision, I disagree with the defendant on this
point. The Third Circuit held that a defendant‘s conduct was a ―substantial factor‖ in a

5
9a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 6 of 21

caused by the original act of child abuse and the harm caused by subsequent
defendants, and (2) the government failed to quantify Mr. Sanders‘s responsibility
relative to other defendants. (Doc. No. 57, at 3–4.)
A. Defendant’s Responsibility Relative to Original Abuser
Last month, the Eighth Circuit addressed the defendant‘s first argument,
that the government failed to disaggregate the initial abuse from the subsequent
use of the victims‘ images. See United States v. Bordman, 895 F.3d 1048, 1058
(8th Cir. 2018). The court noted that Paroline merely acknowledged the potential
difficulty of this issue but did not address it further. Id. (quoting Paroline, 134 S.
Ct. at 1722 (―Complications may arise in disaggregating losses sustained as a
result of the initial physical abuse.‖)). Importantly, the court noted, the Paroline
factors explicitly account for disaggregation. Id. at 1059 (quoting Paroline 134 S.
Ct. at 1728 (including as a factor ―whether the defendant had any connection to
the initial production of the images‖)). These factors should be treated as ―rough

victim‘s harm even though the victim began therapy before learning of the defendant‘s
role in the abuse. United States v. Jacobs, 609 Fed. App‘x 83, 87 (3d Cir. 2015).
In Jacobs, the defendant pretended to be a teenage girl, and he manipulated and
blackmailed boys into sending him explicit pictures of themselves. Id. at 84. This case
differs from Mr. Sanders‘s because the defendant‘s conduct (though not the victims‘
knowledge of that conduct) predated the victims‘ psychological treatment. Whereas, Mr.
Sanders seems to argue that his conduct did not predate all of the victims‘ harm (mostly
meaning psychological treatment).
I find that the reasoning of Jacobs nonetheless fits here. Here, the victims‘ harm is
the knowledge that their image is being shared far and wide. In other words, the harm
does not hinge on any particular defendant‘s action. Every defendant who handled the
victims‘ images, at any time, is responsible for a relative portion of the harm.
Additionally, there is no reason to believe that the timing of the defendant‘s conduct in
this case would create a material difference in the amount of therapy necessary for a
victim.

6
10a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 7 of 21

guideposts‖ rather than ―a rigid formula.‖ Id. (quoting Paroline 134 S. Ct. at
1728). Considering all of this, the Eighth Circuit upheld the district court‘s
restitution award of $3,000. Id.
The Eighth Circuit in Bordman implied that disaggregation from the
original abuse is a ―rough guidepost,‖ like the other Paroline factors. On the other
hand, the Ninth Circuit held that a district court erred when it did not disaggregate
the victim‘s losses. United States v. Galan, 804 F.3d 1287, 1291 (9th Cir. 2015).
The Tenth Circuit, in United States v. Dunn, similarly reversed and
remanded a district court judgment, finding that, ―to the extent that the district
court relied on an expert report that did not disaggregate these harms, the district
court‘s adoption of $1.3 million as the total measure of damages cannot stand.‖
777 F.3d 1171, 1182 (10th Cir. 2015). Dunn reasoned that the defendant, who was
convicted of possession, receipt, and distribution of child pornography, could not
have proximately caused the losses attributable to the original abuse. Id. at 1181–
82. Dunn essentially held that Paroline‘s proximate cause requirement could not
be met where a court did not disaggregate the harm of the original abuse from the
harm inflicted by subsequent defendants.
Here, I find that harm by subsequent defendants must be considered
separately from harm inflicted by the original abuser. A failure to account for this
division of responsibility would mean holding Mr. Sanders responsible for more
than his share of the victims‘ losses. I will address this in more detail below, in the
relevant section of the Paroline analysis.
7
11a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 8 of 21

B. Defendant’s Responsibility Relative to Other Defendants
The defendant‘s second argument is that the government failed to establish
Mr. Sanders‘s portion of responsibility relative to other defendants. Again,
Paroline provides the framework for district courts to assess this issue. I must
determine the amount of loss that Mr. Sanders proximately caused (as
demonstrated by a preponderance of the evidence). Below, I will analyze each of
the Paroline factors, addressing the defendants‘ two arguments in the course of my
analysis.
C. Paroline Analysis
To demonstrate the victims‘ losses in support of its restitution request, the
government submitted twelve packets, one for each series, each prepared by
private counsel for the victims. (Exs. B–M.) These packets contain a psychological
evaluation and victim impact statement for each of the twenty-two victims, along
with other supporting documentation. The packages are far from uniform—some
contain a vocational evaluation, some do not; some provide a bottom-line total of
the victim‘s general losses, some do not. Even where comparable information is
provided, its presentation is not uniform. Perhaps most notably, none of the
packets explain the methodology by which they calculate Mr. Sanders‘s portion of
the harm; nowhere is that explained.
Therefore, I am left with documents that detail the victims‘ suffering, the
long-term treatment they will require, and other relevant facts and figures (none of

8
12a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 9 of 21

which are disputed), but with very little guidance regarding this defendant‘s
relative causal role.
In an Eastern District of New York case, where the government had
requested an across-the-board $3,000 per victim, the court noted that the dollar
amount seemed similarly untethered from discernible reason. See Darbasie, 164 F.
Supp. 3d at 405.
[O]ther than the existence of similar awards computed in similar
instances, nothing in the government‘s filings gives a plausible
explanation as to how it arrived at its blanket suggestion to award
restitution to each identified victim in the amount of $3000. If that
amount bears any connection to the restitution grounds for any of the
identified victims, it is a well-guarded secret.
Darbasie, 164 F. Supp. 3d at 405.
Darbasie assessed the restitution request for each victim. For the first
victim, it reasoned that the total loss claim was $2.75 million, with a ―known
offender equal share of $81,000.‖ Id. at 407. With that, it found that $3,000
represented a very conservative number that would avoid over-punishment of the
defendant, that the government considered fair, and that aligned with Paroline. Id.
For a second victim with significantly lower documented losses and no data
regarding past or future offenders, the court found, with little discussion, that
$3,000 was also an appropriate restitution award. Id.
The third victim had claimed $1.1 million in overall losses and had
received $600,000 from hundreds of previous restitution awards. Id. at 408. For
this victim, the court followed a previous case, which had awarded her only
9
13a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 10 of 21

$2,000, out of caution that ―restitution orders would outpace the claimed loss and,
perhaps, force courts to ‗become unseemly paymasters smoothing out restitution
contributions among pornographers‘ who had victimized her.‖ Id. (citing United
States v. DiLeo, 58 F. Supp. 3d 239, 244 (E.D.N.Y. 2014)).
For other victims who the government identified but who had not
individually claimed restitution, the court awarded them each $3,000.4 Id. The
court reasoned that even though ―the absence of permissible proof‖ prevented ―a
Paroline analysis even in a superficial way,‖ the defendant had not opposed the
$3,000 sought for these victims, and Paroline mandated a ―sum more than
‗trivial.‘‖ Id.

Below, I will analyze the Paroline factors to the extent possible in order to
determine an appropriate restitution award, one that reflects the harm Mr. Sanders
proximately caused, as proven by a preponderance of the evidence. Briefly, after
my analysis, I will outline the additional information that would be helpful to me,
and presumably to other district court judges, in handling child pornography
restitution cases.
A. “[T]he number of past criminal defendants found to have contributed
to the victim’s general losses”

4

The court excluded one victim, ―Tara,‖ who had already received the full amount of her
restitution request and ―expressed her desire that no further restitution . . . be paid to her.‖
Id. at 406, 408.

10
14a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 11 of 21

In this case, there are twenty-two victims in twelve separate series seeking
restitution. (Ex. A.) In the documentation provided by the government, it is
difficult to decipher how many defendants have been ordered to pay restitution to
each victim. The government‘s Exhibit A lists the ―ordered‖ and ―recovered‖
restitution victim by victim, but it is unclear what ―ordered‖ means in this context
and whether ―recovered‖ is a current figure. Exhibit Q lists every restitution award
for each victim, but again, it does not provide a date for when it is current through,
and this 70-page document neither enumerates the restitution awards per victim
nor provides the total payments received by each victim.5
The figures in Exhibit A appear to be incomplete. In Exhibit A, the
2Crazygurls Series and the Vicky Series both show that more restitution has been
―recovered‖ than ―ordered.‖ Regarding the Lighthouse Series, the Spongebob
Series, and the Sweet Sugar Series, Exhibit A is missing either or both of the
―recovered‖ and ―ordered‖ amounts.
Given the evidence presented and the organization thereof, I cannot readily
assess the restitution each victim is seeking from this defendant and the total
amount each has recovered from other defendants. I am left to depend on the
government‘s own representation, which the defendant has not refuted, that none

5

Additionally, it does not group the restitution awards by crime to allow for comparison
(for instance, a comparison of awards in all ―possession‖ cases regarding a given victim).
It organizes some series alphabetically by jurisdiction, others alphabetically by defendant
name, and others seemingly not at all.

11
15a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 12 of 21

of the victims yet have been ―made financially whole.‖ (Gov.‘s Suppl. To Mot. for
Restitution, at 3.)
Separate and apart from all of these issues, as a general matter, I would
hesitate to depend significantly on the number of previous defendants who have
been ordered to pay restitution because that figure could easily be skewed by
factors such as how long ago a victim began seeking restitution. For instance,
imagine one victim who sought awards early-on and currently has hundreds, while
another started seeking awards later and only has a handful (but years from now
may have a similar amount to the first victim).6

6

In Bordman, the Eighth Circuit case, the restitution issue involved ―Pia,‖ who is also a
victim here, as one of the three victims in the Sweet Sugar series. Bordman, 895 F.3d at
1052. The court described the documentation that had been submitted to the district court,
and upon which the court based its $3,000 restitution award:
The documentation included a victim impact statement by Pia‘s mother, a
report from psychologist Dr. Marsha Hedrick, and an attorney costs
declaration. Dr. Hedrick estimated that the costs to Pia, including therapy,
related expenses, and a vocational assessment and counseling, would be
$91,900. Pia‘s attorney estimated that her costs incurred (excluding
attorney‘s fees) were $10,187.13. . . . In its supplemental sentencing
memorandum, the government added one-third of the attorney‘s costs
(because the attorney represented three victims in the ―Sweet Sugar‖
series) to Dr. Hedrick‘s estimate, resulting in a total of $95,295.71.
Id.
That documentation appears to be the same documentation submitted by ―Pia‖ in
this case. In Bordman, the $3,000 figure was based largely on the fact that 31other
defendants had been ordered to pay restitution to the victim. Id. Dividing the
$95,295.71in general losses by 32 (31, plus Bordman), resulted in $2,977.99. Id. The
district court found, and the Eighth Circuit affirmed, that other factors, in addition to this
―1/n formula‖ that considers previous restitution orders, made $3,000 a reasonable sum.
Id. at 1058–59.
Comparing Bordman to Mr. Sanders‘s case illustrates the problem with depending
too heavily on the Paroline factor that considers past defendants who have contributed to
the victims‘ losses. While there were 31 other restitution orders when the district court
decided Mr. Bordman‘s case, that number has now approximately doubled. See Ex. Q.

12
16a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 13 of 21

Lastly, inherently absent from Exhibit Q are individuals who have been
convicted (and therefore contributed to the harm) but who, for one reason or
another, were not ordered to pay restitution. For all of these reasons, I will not
depend heavily on the ―number of past criminal defendants found to have
contributed to the victim‘s general losses‖ because any available measure of that
number is unreliable.
B. “[R]easonable predictions of the number of future offenders likely to
be caught and convicted for crimes contributing to the victim’s general
losses”
The government has not attempted to quantify the likely number of future
offenders, and it would be impossible to do so except to say that it is likely
significant, given the unfortunate regularity of such convictions. Therefore, this
factor does not weigh heavily on my restitution decision.
C. “[A]ny available and reasonably reliable estimate of the broader
number of offenders involved (most of whom will, of course, never be
caught or convicted)”
For similar reasons to those discussed above, this factor is impossible to
estimate.

Yet, given Pia‘s losses and the conduct at issue, I see no reason why Mr. Sanders‘s would
be any less responsible than Mr. Bordman. The fact that Mr. Sanders‘s restitution
payment is calculated at a later date should have no bearing on his proportional
responsibility.

13
17a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 14 of 21

D. “[W]hether the defendant reproduced or distributed images of the
victim”
Mr. Sanders was not convicted of reproducing or distributing the images.
Therefore, this factor weighs in favor of a lower restitution award than in cases
where the defendant was more deeply involved in the exchange of images.
E. “[W]hether the defendant had any connection to the initial production
of the images”
Mr. Sanders was not connected to the initial production of the images.
Therefore, this factor leans in favor of a lower restitution amount than if he were
involved in the initial production.
As discussed above, whether it is mandatory or not to disaggregate the
original abuser‘s harm from that of subsequent defendants, I find that
disaggregation must be considered here in order to achieve a fair result. The
proportions of harm due to the initial abuse and the subsequent use of the images
will necessarily vary victim-to-victim.
The Ninth Circuit noted that many factors contribute to these variations,
including the ―egregiousness of the original abuse; how a victim can (or does)
cope with that kind of abuse when distribution of images does not follow; and the
particular victim‘s own reactions to the various traumas to which the victim has
been subjected.‖ United States v. Galan, 804 F.3d 1287, 1291 (9th Cir. 2015).
However, weighing these factors is a necessarily imprecise and discretionary
process. ―If the ultimate apportionment is not scientifically precise, we can only
14
18a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 15 of 21

say that precision is neither expected nor required.‖ Id. (citing Paroline, 134 S. Ct.
at 1728–29).
Because the victims‘ requested restitution is a small fraction of their total
losses, it is a reasonable presumption that the government considered
disaggregation in fashioning its request. However, because disaggregation is a
significant factor, and because it is unclear to what extent it factored into the
restitution request, I will award less than the requested amount of restitution in
large part to account for this factor.
F. “[H]ow many images of the victim the defendant possessed”
Mr. Sanders possessed approximately 94,000 unique images of child
pornography. (Doc. No. 54, at 3.) Of those images, 1,614 correspond to the
twenty-two victims seeking restitution.7 These numbers show that the defendant
was significantly involved in the procurement and collection of child pornography,
and the victims‘ restitution awards should reflect this.
In Exhibit A, the government breaks down the number of images possessed
by Mr. Sanders by series, but not by victim—and four of the twelve series have
multiple victims. Therefore, it is impossible to decipher how many photos of each
victim Mr. Sanders possessed.
The numbers of images by series range from one, in the J_blonde Series, to
899 in the 8 Kids Series. (Ex. A.) No evidence has been presented regarding

7

This number was calculated by adding the number of images listed under each of the
twelve series in the government‘s Exhibit A.

15
19a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 16 of 21

whether Mr. Sanders‘s possession of 899 images caused a materially greater harm
than Mr. Sanders possession of one image to the victims of the respective series.
As noted in multiple victim impact statements, the widespread and
seemingly endless exchange of the images is the source of anguish. Whether a
defendant holds one or a thousand of a victim‘s images, he has taken part in
causing this mental anguish and terror.
Given the evidence before me, I cannot say that Mr. Sanders‘s possession
of more images of one series means he should pay a discernibly higher amount to
those victims than to others. Therefore, in light of this lack of evidence, I will not
differentiate among victims of different series based on the number of images
possessed.
G. “[O]ther facts relevant to the defendant’s relative causal role”
There is nothing additional about Mr. Sanders‘s case that would make him
deserving of a more or less favorable outcome than similarly situated defendants.
H. Restitution Attributable to Mr. Sanders
I must contemplate a restitution award that compensates the victims for
their harm but does not punish Mr. Sanders for more than the share he proximately
caused. This is an inherently difficult challenge.
The government‘s restitution request, comprised of 22 separate requests for
each victim, totals $296,915.8 (Ex. A.) The victims‘ individual requests all

8

Two victims‘ restitution requests require additional analysis because they each
include both a general request (like the others) and a separate request—one for attorney‘s

16
20a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 17 of 21

represent a small fraction of their total losses, comprised largely of long-term
psychological treatment. The total losses are supported by psychological
evaluations, victim impact statements, and other supporting documents, which
detail each victim‘s harm. (Exs. B–M.)
As noted above, the analysis underlying each victim‘s requested restitution,
which purportedly accounts for Mr. Sanders‘s individual role, is entirely unclear

fees and the other for expenses. The mandatory restitution statute includes recovery for a
victim‘s attorney‘s fees and other expenses. 18 U.S.C. § 2259(b)(3). These expenses, like
the victims‘ other losses, must be proven by a preponderance of the evidence and
apportioned according to the ―relative causal significance‖ of the defendant‘s conduct,
pursuant to Paroline. See 134 S. Ct. at 1728.
First, for the J_blonde series, the government has requested $1,500 in attorney‘s
fees in addition to the general restitution request of $7,500. (Ex. A.) A letter from the
victim‘s attorney, Carol L. Hepburn, states that the $1,500 figure is based on her hourly
rate of $350. (Ex. F.) No further information has been provided that would allow me to
understand why this figure has been listed separately from the victim‘s general losses or
to assess whether this figure has been apportioned to match this defendant‘s relative
causal role. Therefore, I cannot find by a preponderance of the evidence that this
requested sum aligns with the defendant‘s role.
That said, there is no doubt that the victim‘s attorney put a significant amount of
work into this matter. Accordingly, I need to calculate an appropriate award. As reflected
in the order that accompanies this memorandum, I will reduce the request for attorney‘s
fees by three-quarters, resulting in a conservative award that takes into account the
Paroline factors, including the fact that much of the same legal work may be used in
seeking restitution from other defendants.
Second, for the Spongebob series, the government has requested $33,415 in
expenses ($29,000 for a forensic psychological exam and $4,415 for a report on
economic losses) in addition to the general restitution request of $25,000. (Ex. A.) This
request for expenses is very high and has not been calculated to coordinate with Mr.
Sanders‘s relative role. Throughout this case, I have avoided delving into the calculus
behind each victim‘s reported expenses because they are supported by Exhibits B–M and
because the defendant did not dispute them. However, this particular expense is an outlier
that I must address separately in order to fairly apply the law. I must consider the
Paroline factors discussed above, keeping in mind that the same items accounted for in
the expenses may be used in seeking restitution from other defendants, and calculating a
conservative award in light of the lack of supporting evidence. With that, I will reduce
this award to ten percent of the amount requested by the government. This will be
reflected in the order accompanying this memorandum.

17
21a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 18 of 21

from the record. Based on the evidence before me, I cannot agree that Mr. Sanders
is responsible for the entire amount requested. However, the government has
proven by a preponderance of evidence that Mr. Sanders proximately caused some
portion of the victims‘ harm. Therefore, I must calculate an appropriate award.
In order to assess Mr. Sanders‘s portion of the victims‘ harm, I will
consider the evidence before me in light of the Paroline factors discussed above,
and I will reduce the sum further to account for the opacity of the reasoning
behind the requested amounts. I will grant a restitution award that is one-third of
the government‘s requested total. In doing so, I am attempting to carry out my role
as summarized in Paroline:
[C]ourts can only do their best to apply the statute as written in a
workable manner, faithful to the competing principles at stake: that
victims should be compensated and that defendants should be held to
account for the impact of their conduct on those victims, but also
that defendants should be made liable for the consequences and
gravity of their own conduct, not the conduct of others.
Paroline, 134 S. Ct. at 1729.
My decision to award one-third of the government‘s requested sum
maintains the relative differences in the victims‘ circumstances, as set forth in
Exhibits B–M. Frankly, I would like to award more than this if the evidence
supported it. Victims of child pornography crimes must deal with the fact that their
abuse is proliferated and watched by countless individuals over many years. While
we have victim impact statements and psychological evaluations to drive home
this harm, the truth is that no amount of compensation could ever fix it. I also
18
22a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 19 of 21

regret that the judicial process for determining restitution awards in child
pornography cases is so imperfect and imprecise. This is neither good for victims
nor defendants. In an attempt to improve upon this process, I have listed items
below that would help district courts assess restitution requests more efficiently
and uniformly.
I. Improving the Paroline Process
The Paroline framework, with its broad, discretionary factors, is difficult to
employ efficiently (especially in cases involving many victims) and uniformly
across many cases. However, as I have endeavored to work toward fair disposition
here, I have realized that simple improvements in the presentation of the victims‘
losses would go a long way in helping district court judges determine fair
restitution awards. What follows is a wish list, of sorts, that may be useful in
future cases. It aims to achieve a higher level of uniformity and efficiency in the
presentation of information. Any progress made toward that end would help
district courts immensely.
1. Principal and Supplemental Charts
The chart labeled Exhibit A in this case is useful but could be improved
upon in several ways. Exhibit A was the go-to document for concrete facts and
figures. It had four categories: ―Series and # Images,‖ ―Victim,‖ ―Amount,‖ and
―Payable.‖ ―Amount‖ listed the per-victim restitution request, and ―Payable‖
provided the address for payment and the ―ordered/recovered‖ restitution amounts.

19
23a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 20 of 21

The information contained in Exhibit A could be improved upon in the
following ways: (1) by listing the number of photographs by victim, instead of
only by series, (2) by clarifying what ―ordered/recovered‖ means and the date
through which those figures are current, and (3) by separating the requests for
attorney‘s fees and other expenses from the sum of each victim‘s total losses and
detailing the basis for those requests (or, instead, by consistently including all
expenses in the per-victim restitution request).
Either the same chart or a separate chart should list each victim‘s total
losses (ideally, broken down by category, such as ―future mental health
treatment‖), total attorney‘s fees, other expenses, and requested restitution award.
As noted below, the government, in its briefing, should explain the process by
which it arrived at the requested restitution award.
Another chart, similar to the government‘s Exhibit Q in this case, should
list the individual restitution awards previously ordered for each victim and the
total restitution ordered for each victim. This chart should be numbered so that the
court can readily see how many restitution orders there are per victim. Critically,
this chart should note the date through which these figures are current.
2. Paroline Analysis
Both parties should brief the Paroline factors as they relate to each victim
(or by categorizing similarly situated victims) so that the court can consider
opposing arguments. In the course of this analysis, the government should detail

20
24a

Case 2:16-cr-00513-LS Document 65 Filed 08/27/18 Page 21 of 21

the reasoning that underlies the requested amount of restitution for each victim
(and how each requested sum relates to each victim‘s total losses).
3. Organization of Victims’ Documentation
The government should provide an index listing every victim‘s
documentation, including the exhibit numbers (if applicable) and the documents
included therein.
While I hope this brief list serves as a jumping-off point to improve the
post-Paroline process, I agree with the Ninth Circuit that the task of determining
restitution in child pornography cases ―cries out for a congressional solution.‖ See
Galan, 804 F.3d at 1291.Until then, we must do our best to work within and
improve the system we have in place.
An appropriate order follows.

21
25a

Case 2:16-cr-00513-LS Document 66 Filed 08/27/18 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA

UNITED STATES OF AMERICA

:
:
:
:
:

vs.
DEVON EDWARD SANDERS

CRIMINAL ACTION
NO. 16-0513

ORDER
AND NOW, this 27th day of August, 2018, upon consideration of the
government’s motion requesting restitution (Doc. No. 54); the defendant’s response and
supplemental response (Doc. Nos. 57, 59); and the government’s supplement to its
motion for restitution, and after a July 31, 2018 hearing on the matter, IT IS HEREBY
ORDERED that the government’s motion is GRANTED IN PART.
Mr. Sanders must pay restitution to the twenty-two victims who have requested it
in the amounts listed in the chart below.

1

Series
8 Kids

Victim
John Does I–
V (5 victims)

2

Angela

Angela

3

At School

Violet

Amount
Payment
$5,000 per Tanya Hankins
victim (5) Law Office of Erik L. Bauer
in trust for [child]
215 Tacoma Avenue South
Tacoma, WA 98402
$4,000
Attorney Elaine Lenahan
in trust for Angela
2655 Villa Creek, Suite 222
Dallas, TX 75234
$3,333
Attorney Carol Hepburn
in trust for Violet
200 1st Avenue W., Suite 550
Seattle, WA 98119-4203

26a

Case 2:16-cr-00513-LS Document 66 Filed 08/27/18 Page 2 of 3

4

2Crazygurls

Chelsea

$3,333

5

J_blonde

Solomon

$2,8751

6

Jan_Socks

$3,333,
$2,500,
$2,500,
$2,500

7

Lighthouse

Sierra,
Savannah,
Skylar,
Sally
(4 victims)
Maureen,
Casseaopeia

$3,333,
$8,333

8

Marineland

Sarah

$5,000

9

Spongebob

Andy

$11,6752

Ava,
Mya,
Pia

$1,667
$1,667
$1,667

10 Sweet Sugar

1

Attorney Elaine Lenahan
in trust for Chelsea
2655 Villa Creek, Suite 222
Dallas, TX 75234
Attorney Carol Hepburn
in trust for Solomon
200 1st Avenue W., Suite 550
Seattle, WA 98119-4203
Attorney Carol Hepburn
in trust for [child]
200 1st Avenue W., Suite 550
Seattle, WA 98119-4203
Attorney Deborah A. Bianco
in trust for Maureen
14535 Bellevue-Redmond Rd.,
Suite 201
Bellevue, Washington 98007
Marsh Law Firm
in trust for Casseaopeia
Box 4668 #65135
New York, NY 10163-4668
Attorney Carol Hepburn
in trust for Sarah
200 1st Avenue W., Suite 550
Seattle, WA 98119-4203
Heidi Nestel, Esquire
in trust for Andy
3335 South 900 East, Suite 200
Salt Lake City, UT 84106
Attorney Deborah A. Bianco
in trust for [child]
14535 Bellevue-Redmond Rd.,
Suite 201
Bellevue, Washington 98007

This sum includes a $2,500 award for the victim’s losses, plus a $375 award for the victim’s
attorney’s fees. The award for attorney’s fees is one-fourth of the amount requested by the
government, as discussed in footnote eight of the memorandum accompanying this order.
2
This sum includes an $8,333 award for the victim’s losses, plus a $3,342 award for the victim’s
expenses. The award for expenses is one-tenth of the amount requested by the government, as
discussed in footnote eight of the memorandum accompanying this order.

27a

Case 2:16-cr-00513-LS Document 66 Filed 08/27/18 Page 3 of 3

11 Tightsngold

Emily

$5,000

12 Vicky

Vicky

$3,333

Tanya Hankins
Law Office of Erik L. Bauer
in trust for Emily
215 Tacoma Avenue South
Tacoma, WA 98402
Attorney Carol Hepburn
in trust for Vicky
200 1st Avenue W., Suite 550
Seattle, WA 98119-4203

Total:
$91,049

BY THE COURT:

/s/ Lawrence F. Stengel
LAWRENCE F. STENGEL, J.

28a

Case: 18-2719

Document: 91

Page: 1

Date Filed: 12/11/2020

APPENDIX C

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_____________
Nos. 18-2719 and 18-2994
_____________

UNITED STATES OF AMERICA
v.
DEVON E. SANDERS,
Appellant
______________
On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Criminal No. 2:16-cr-00513).

SUR PETITION FOR REHEARING

Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, and ROTH1 Circuit Judges

The petition for rehearing filed by appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who

1

Judge Roth’s vote is limited to panel rehearing only.

29a

Case: 18-2719

Document: 91

Page: 2

Date Filed: 12/11/2020

concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
BY THE COURT,

s/ Theodore A. McKee
Circuit Judge
Date: December 11, 2020
cc:
Alison D. Kehner, Esq.
Michelle Rotella, Esq.
Peter Goldberger, Esq.

30a

